      Department of Homeland Security




             Customs and Border Protection's 

                Office of Regulatory Audit 





OIG-12-117                                 September 2012

                          OFFICE OF INSPECTOR GENERAL
                              Department of Homeland Security
                              Washington, DC 20528 / www.oig.dhs.gov


                                      SEP 7 2012

MEMORANDUM FOR:               Allen Gina
                              Assistant Commissioner for International Trade
                              U.S. Customs and Border Protection

FROM:                         Anne L. Richards
                              Assistant Inspector General for Audits

SUBJECT:                      AuditfoffCustomsfandfBorderfProtection’sfOfficefoff
                              RegulatoryfAuditf
ff
Attached for your action is our final report, AuditfoffCustomsfandfBorderfProtection’sf
OfficefoffRegulatoryfAudit.ffWe incorporated the formal comments from the Customs
and Border Protection’sf(CBP) Office of Regulatory Audit in the final report.

The report contains five recommendations aimed at improving CBP’s Office of
Regulatory Audit. Your office concurred with all five recommendations. Based on
information provided in your response to the draft report, we consider the
recommendations resolved. Once your office has fully implemented the
recommendations, please submit a formal closeout letter to us within 30 days so that
we may close the recommendations. The memorandum should be accompanied by
evidence of completion of agreed-upon corrective actions and of the disposition of any
monetary amounts.

Consistent with our responsibility under the InspectorfGeneralfAct, we are providing
copies of our report to appropriate congressional committees with oversight and
appropriation responsibility over the Department of Homeland Security. We will post
the report on our website for public dissemination

Please call me with any questions, or your staff may contact Mark Bell, Deputy Assistant
Inspector General for Audits, at (202) 254-4100.

Attachment
                                         OFFICE OF INSPECTOR GENERAL
                                               Department of Homeland Security


   Table of Contents
   Executive Summary............................................................................................................. 1


   Background ........................................................................................................................ 2


   Results of Audit ................................................................................................................... 2


              Audit Process .......................................................................................................... 2

              Audit Selection Process ......................................................................................... 10 

              Guidance for Collaborating with Collection Officials ............................................ 12 

              Recommendations ................................................................................................ 13 

              Management Comments and OIG Analysis .......................................................... 14 


   Appendixes
              Appendix A:          Objectives, Scope, and Methodology............................................ 17 

              Appendix B:          Management Comments to the Draft Report ............................... 19 

              Appendix C:          Major Contributors to This Report ................................................ 23 

              Appendix D:          Report Distribution ........................................................................ 24 


   Abbreviations
              CBP             U.S. Customs and Border Protection
              DHS             Department of Homeland Security
              FY              fiscal year
              GAO             Government Accountability Office
              GAGAS           Generally Accepted Government Auditing Standards
              OIG             Office of Inspector General
              ORA             Office of Regulatory Audit
              PTI             Priority Trade Issue
              SOP             Standard Operating Procedures




www.oig.dhs.gov                                                                                                                OIG-12-117
                            OFFICE OF INSPECTOR GENERAL
                                Department of Homeland Security


   Executive Summary
   U.S. Customs and Border Protection’s (CBP) Office of Regulatory Audit advises collection
   officials of revenue underpayments and importer noncompliance. The Office of
   Regulatory Audit conducts diverse audits, including audits to ensure the protection of
   U.S. Government revenues and compliance with customs laws, as well as audits to
   protect the rights of the public transacting business. To ensure compliance with
   customs laws, the Office of Regulatory Audit selected importers to determine whether
   they have accurately declared the value and classification of their merchandise for entry
   into U.S. commerce. In 2010, CBP provided oversight for more than $30 billion in
   revenue to the U.S. Government. The Office of Regulatory Audit is part of CBP’s
   oversight function. Senator Charles Grassley expressed concerns about alleged
   deficiencies in CBP’s revenue collection program and requested an audit of the entire
   oversight process.

   Our audit objectives were to determine whether the Office of Regulatory Audit is
   conducting audits with reasonable assurance that they meet current Government
   Auditing Standards and whether the office has an effective process for audit selection.
   The Office of Regulatory Audit is not conducting audits that meet all July 2007
   Government Auditing Standards, does not have an effective audit selection process, and
   needs to improve CBP’s ability to recoup unpaid duties identified during audits. These
   problems are due to outdated audit policies, poorly implemented field quality control
   mechanisms, a lack of current importer information for audit selection, and insufficient
   collaboration with CBP collection officials.

   We recommend that the CBP Office of Regulatory Audit ensure that its audits comply
   with current Government Auditing Standards, update its audit manual, strengthen its
   internal quality control program, revise its audit selection process, and improve
   collaboration with CBP collection officials and other Department of Homeland Security
   (DHS) stakeholders. The CBP Office of Regulatory Audit concurred with all five
   recommendations.




www.oig.dhs.gov                                1                                     OIG-12-117
                                  OFFICE OF INSPECTOR GENERAL
                                      Department of Homeland Security




   Background
   CBP collects more than $30 billion in duties, fees, and taxes annually and is the second
   largest revenue generator for the U.S. Government. Since 2002, revenue has been
   identified as one of CBP’s eight Priority Trade Issues (PTIs) that have a high risk of
   threatening or harming U.S. interests. The goal of the revenue-related PTI is to ensure
   that CBP has effective procedures to protect the duties and taxes it collects. The Office
   of Regulatory Audit (ORA), which is under CBP’s Office of International Trade, enforces
   compliance. ORA conducts post-entry audits of importers and other parties involved in
   importing goods and provides special technical audit assistance in CBP priority trade and
   security areas. ORA’s core responsibility is to conduct in-depth reviews of importers to
   determine whether they account for and declare accurate and complete information for
   merchandise imported into the United States. ORA’s audit tracking system showed that
   the office completed 1,053 audits from fiscal years (FYs) 2008 to 2010.

   In FY 2010, DHS received correspondence from Senator Charles Grassley expressing
   concerns about alleged deficiencies in CBP’s revenue collection program. He requested
   that the Office of Inspector General (OIG) conduct an audit of ORA’s operations. This
   audit was initiated in response.

   Results of Audit
   ORA needs to ensure that its audits are conducted in accordance with current
   Government Auditing Standards and improve the effectiveness of its audit selection
   process. In addition, to improve CBP’s ability to recoup unpaid duties identified during
   audits, ORA needs to improve its collaboration with CBP collection officials.

             Audit Process

             Our review of a sample of 30 audits showed that ORA cannot be assured that
             these audits were documented or conducted in accordance with the
             Government Auditing Standards in effect at the time of our review.1

             The audits we reviewed were conducted and documented using an outdated
             audit manual that did not fully comply with current Government Accountability
             Office (GAO) Government Auditing Standards, commonly referred to as
             Generally Accepted Government Auditing Standards (GAGAS). Furthermore, the

   1
       GAO Government Auditing Standards (July 2007 Revision), GAO-07-731G.

www.oig.dhs.gov                                       2                               OIG-12-117
                                OFFICE OF INSPECTOR GENERAL
                                    Department of Homeland Security


           ORA field internal quality control system did not adequately ensure that the
           audits were performed and documented in accordance with July 2007 GAGAS.
           In a separate review of other ORA audits issued in November 2009, ORA
           headquarters’ internal quality control team noted that audit reports and
           supporting documentation contained mathematical and sampling calculation
           errors, contradictions, and insufficient audit evidence at the field office level.
           The November 2009 report also noted that these same deficiencies were found
           previously.

           In 2010, ORA received a peer review rating of “Pass” from a certified public
           accountant and consulting firm, whose stated opinion was that ORA’s FY 2009
           system of quality control was suitably designed and complied with professional
           standards. However, this peer review covered data from only 1 year and did not
           include many audit reports we reviewed during our audit. According to the firm,
           noncompliance with the system of quality control may occur and not be
           detected. ORA’s internal quality control team noted GAGAS deficiencies in FY
           2009 and FY 2010.

           In an earlier peer review conducted in FY 2006, the same consulting firm noted
           GAGAS deficiencies, including report findings not supported by audit
           documentation; audit sampling not appropriately documented, evaluated, and
           reported; and issues with GAGAS reporting consistency and adequacy of audit
           programs. The review also noted that the internal quality assurance checklists
           were not properly updated and were not consistent with current policies and
           procedures.

           As a U.S. Government auditing organization, ORA’s work must adhere to GAGAS.
           These standards provide guidance for performing high-quality audit work with
           competence, integrity, objectivity, and independence and ensure that users of
           U.S. Government audit reports can rely on report information.

           Audit Manual

           ORA has not fully updated its audit manual to comply with 2007 Government
           Auditing Standards. ORA published its audit manual in accordance with GAGAS
           issued in 2003. ORA has updated four chapters, but six chapters have not been
           fully updated to comply with GAGAS issued in 2007.2 Thus, ORA is not providing
           its auditors with clear guidance to perform audits that comply with current

   2
    GAO has issued a 2011 revision of Government Auditing Standards (December 2011), GAO-12-331G.
   These updated standards were not applicable to the work we reviewed, but ORA must also include the
   2011 updated standards when revising its audit manual and applicable guidance.

www.oig.dhs.gov                                      3                                           OIG-12-117
                             OFFICE OF INSPECTOR GENERAL
                                 Department of Homeland Security


           GAGAS. We compared the ORA audit manual with the July 2007 GAGAS and
           found areas of noncompliance such as the following:

           •	 The manual does not include the audit risk assessment requirements from
              the July 2007 revision of GAGAS. Performing audit risk assessments helps to
              ensure that auditors do not draw improper conclusions.

           •	 The ORA manual states that individuals who conduct quality assurance
              checks of audits prior to issuance do not need to complete an independence
              certification. However, July 2007 GAGAS state that all auditors participating
              in an audit must be free of personal impairments; they also state that
              procedures should provide reasonable assurance that the audit organization
              and its personnel maintain independence.

           ORA staff periodically issue updated sections of the audit manual; however, the
           office does not compile the information to provide auditors with a complete,
           organized, and easily accessible manual. Instead, each update is published
           separately and is not clearly referenced to a specific section of the audit manual.
           ORA needs clearly organized and accessible standards to ensure that its auditors
           have the necessary guidance to conduct audits in accordance with current
           Government Auditing Standards. During our review, ORA agreed that the audit
           manual should be completely updated to reflect the current version of GAGAS
           and is taking action to address the most significant updates from the 2007
           revision. ORA has since provided training to its audit staff on the July 2007
           GAGAS requirements.

           Internal Quality Control System

           ORA has several quality assurance mechanisms to evaluate its audits and audit
           processes and to ensure compliance with both GAGAS and its own policies. For
           example, ORA’s Quality Assurance Division at headquarters conducts internal
           quality control reviews of each field office every 3 years. ORA also has numerous
           quality assurance processes at the field office level. ORA relies on five standard
           checklists to review audit work for accuracy and completeness prior to report
           issuance; two checklists are used twice. July 2007 GAGAS state that quality
           control systems should be designed to provide reasonable assurance that the
           audit organization and its personnel comply with professional standards and
           legal and regulatory requirements. Furthermore, for quality control, GAO
           requires an organization performing audits in accordance with GAGAS to
           undergo an external peer review at least once every 3 years. The external peer
           review determines whether the organization’s system of quality control is
           suitably designed and complies with professional standards. Our review of 30
www.oig.dhs.gov                                 4                                  	    OIG-12-117
                              OFFICE OF INSPECTOR GENERAL
                                 Department of Homeland Security


           audits showed that controls were not collectively implemented at the field office
           level to provide reasonable assurance that ORA’s audits were performed in
           accordance with July 2007 Government Auditing Standards. As a result, ORA
           may not be able to ensure that report deficiencies are identified and corrected
           before report issuance. ORA should strengthen and revise its internal quality
           control review processes to provide additional assurance that its audits are
           conducted and documented in accordance with current Government Auditing
           Standards.

           Audit Performance—Conducting the Audit

           To review the ORA audit process, we selected 30 audits conducted from FY 2008
           to FY 2010 by six field offices and one sub-office. We determined that ORA did
           not complete all these audits according to all performance auditing standards.
           Therefore, based on our review of audits in the sample, we concluded that ORA
           cannot be assured that all its audits were conducted according to performance
           auditing standards.

           In regard to internal control for performance audits, GAGAS 7.16 (July 2007)
           states that government auditors should obtain an understanding of internal
           controls that is significant within the context of the audit objectives. Internal
           control assessments evaluate whether an organization has measures in place to
           conduct business in compliance with applicable standards. ORA staff did not
           conduct appropriate testing of internal controls to obtain an understanding of
           the internal controls significant within the context of the audit objectives in 19 of
           30 audits (63 percent) we reviewed. As a result, ORA may not have had
           sufficient and appropriate evidence to support its assessment of the
           effectiveness of importer operations.

           For example, one audit concluded that a company was commingling seafood of
           different origins and therefore owed approximately $6.9 million to CBP. The
           audit analyzed 15 company records to determine whether seafood of different
           origins was being commingled. ORA staff selected eight reports in which the
           seafood weight going into the processing plant was less than the weight leaving
           the plant. ORA staff reasoned that seafood of an unknown origin had been
           added during processing because some reports showed that the seafood weight
           was greater after processing. However, other reports showed that the weight
           was greater before processing.

           ORA staff did not include in the methodology a step to determine the reasons for
           weight variances between shipments entering and leaving the plant. Because
           ORA staff did not analyze the company’s internal control operations for weighing

www.oig.dhs.gov                                  5                                       OIG-12-117
                             OFFICE OF INSPECTOR GENERAL
                                 Department of Homeland Security


           the seafood, the evidence is not sufficient and appropriate to support the
           findings and conclusions. Collection officials reduced the amount of additional
           payment owed to CBP to zero. ORA noted that many other factors may affect
           CBP’s ability to collect ORA-identified duty underpayments, including a
           company’s ability to pay the duty owed to the U.S. Government and settlement
           offers in which a company agrees to pay a reduced amount.

           Audit Design

           According to GAGAS 7.10 (July 2007), government auditors should design their
           audit methodology to obtain sufficient, appropriate evidence to address the
           audit objectives. ORA staff did not design a methodology to obtain adequate
           evidence for the audit objective in 10 of 30 audits (33 percent) we reviewed. As
           a result, ORA may not be able to provide reasonable assurance that evidence
           collected for these audits was sufficient to support its findings and conclusions.

           For example, in one audit we reviewed, ORA staff did not design a methodology
           to obtain sufficient, appropriate evidence to address the audit objective. The
           objective was to determine whether the importer was able to sufficiently
           support the accuracy of its importation information declared to CBP and
           whether the importer owed additional duty payments. From its audit, ORA
           concluded that the company owed $4.5 million in additional duty payments
           because it could not support the accuracy of its claims. However, ORA reached
           this conclusion by applying its audit work to similar, yet more recent,
           importations that required CBP to provide less proof. ORA did not design its
           audit to provide sufficient information on the transactions it used to calculate
           duty underpayment of $4.5 million. As a result, ORA could not support its claim
           for duty underpayment, and collection officials reduced the amount of additional
           payment owed to CBP to zero.

           Data Quality

           According to GAGAS 7.57 and 7.68 (July 2007), government auditors should
           evaluate whether the evidence taken as a whole is sufficient and appropriate to
           address the audit objectives and support findings and conclusions. ORA staff did
           not document the work performed to ensure that audit data were accurate and
           complete in 11 of 30 audits (37 percent) we reviewed. As a result, we were
           unable to verify whether the audit work conducted to support findings and
           conclusions for these audits was sufficient.

           For example, an ORA audit sampled 30 transactions for 2006 to ensure that
           transaction classifications were accurately reported. The audit identified three

www.oig.dhs.gov                                 6                                      OIG-12-117
                             OFFICE OF INSPECTOR GENERAL
                                 Department of Homeland Security


           transactions that had been misclassified for a total underpayment of $2,351; the
           underpaid amount projected to the entire data population for that time period
           resulted in an estimated underpayment of $215,712. ORA identified internal
           control deficiencies as the reason for the misclassifications. However, ORA
           completed testing of internal controls in 2005 and did not do additional testing
           to determine if the identified deficiencies were applicable in 2006. The audit
           report did not document the circumstances for the three errors in transaction
           classification or relate them back to other transactions in the universe of data.
           Therefore, although ORA used a statistically appropriate methodology, the
           projection was not reliable. The company agreed with the classification errors
           identified but disagreed with the projected underpayment calculated in the audit
           report. At the time of our audit, $32,379.91 had been collected.

           Insufficient Documentation

           In the audits reviewed, we also identified areas in which ORA’s audit work was
           not sufficiently documented in accordance with Government Auditing Standards.
           Each area and the number of audits in which the deficiency was noted are
           explained below.

           Program Risk Assessment

           According to GAGAS 7.13 through 7.15 (July 2007), government auditors should
           obtain an understanding of the relevant risks associated with the program under
           audit. External risk assessments evaluate external factors or conditions that
           could directly affect the program under audit. ORA staff did not document their
           assessment of external risk in 8 of 30 audits (27 percent) we reviewed. As a
           result, ORA may not be documenting all the high-risk areas of the importers’
           operations it reviewed. ORA provided examples of its risk assessment
           procedures, including team strategy meetings to identify risk; analysis and
           review of previous audits, types of importations, and trade agreements; and
           reviews of stockholder information. However, ORA does not always document
           these risk assessments or its overall conclusion of external risk.

           Audit Risk Assessment

           According to GAGAS 7.05 through 7.07 (July 2007), government auditors should
           assess the possibility that their findings, conclusions, recommendations, or
           assurance may be improper or incomplete. Internal risk is assessed to evaluate
           the possibility that an audit team will reach incorrect conclusions. ORA staff did
           not document their assessment of internal risk in 30 of 30 audits (100 percent)
           we reviewed. As a result, ORA may not have adequate evidence to support the

www.oig.dhs.gov                                 7                                      OIG-12-117
                                  OFFICE OF INSPECTOR GENERAL
                                      Department of Homeland Security


           steps taken to prevent or mitigate the potential issues identified in its
           assessments. ORA agrees that a formalized process to evaluate internal risk
           would improve the audit process; therefore, it plans to include guidance in its
           audit manual on internal risk and provide training to its staff.

           Fraud Assessment

           According to GAGAS 7.30 (July 2007), government auditors should assess the risk
           of the occurrence of fraud that is significant within the context of the audit
           objectives. Fraud assessments evaluate the possibility that an audit team may
           uncover fraudulent activities while conducting an audit. ORA staff did not
           document their assessment of fraud in 29 of 30 audits (97 percent) we reviewed.

           As a result, ORA may not have adequate evidence to support the steps taken to
           identify fraud risks and whether the risks in these audits were properly detected
           and mitigated. ORA agrees that the audit procedures for documenting fraud
           assessments were deficient and has revised its auditor planning checklist to
           include guidance on assessing and documenting the risk of fraud. All auditors
           are required to complete training on the revised auditor planning checklist.

           Competence

           According to GAGAS 3.49 (July 2007), government auditors who use the work of
           external specialists should assess the professional qualifications of such
           specialists and document their findings and conclusions.3 Specialists should be
           qualified and maintain professional competence in their areas of specialization.
           In addition, GAGAS 7.45 (July 2007) states that if planning to use the work of
           specialists, auditors should document the nature and scope of the work the
           specialists will perform.

           ORA staff did not document the professional qualifications and work to be
           performed by external specialists in 27 of 27 audits (100 percent) we reviewed;
           ORA did not use external specialists in the remaining 3 reviewed audits. As a
           result, ORA may not be able to ensure that specialists selected possess the
           necessary knowledge, skills, and experience to conduct the required audit work.

           ORA disagrees with this finding because, according to chapter 4 of the ORA audit
           manual, “DHS employees assigned to an audit will be assumed qualified to

   3
     GAGAS were revised in December 2011; however, they still require government auditors to determine
   that external specialists assisting in performing a GAGAS audit are qualified and competent in their areas
   of specialization (GAGAS 3.79).

www.oig.dhs.gov                                         8                                             OIG-12-117
                             OFFICE OF INSPECTOR GENERAL
                                 Department of Homeland Security


           participate in the audit.” However, we believe the ORA audit manual should
           require staff to identify the audit work specialists will perform and ensure that
           selected specialists are capable of performing the audit work.

           Data Testing

           According to GAGAS 7.64 (July 2007), when government auditors use
           information gathered by officials of the audited entity as part of their evidence,
           they should determine what the officials or other auditors did to ensure that the
           information was reliable. ORA staff did not document the work performed to
           ensure that data used in audit work were accurate and complete in 7 of 30
           audits (23 percent) we reviewed.

           Specifically, ORA did not have adequate documentation to support the steps it
           took to test the reliability of the data. Auditors must test each data set used in
           an audit to ensure that the data used to conduct the audit are accurate and
           complete. Since ORA did not document its testing methods, we were unable to
           verify whether the data used to support findings and conclusions in the reviewed
           audits were accurate and complete.

           Other Opportunities for Improvement

           Independence

           According to GAGAS 3.07 and 3.08 (July 2007), government auditors must be
           free from personal impairments to independence and should maintain
           documentation of the steps taken to identify potential personal independence
           impairments. Although ORA documents the steps it takes to determine auditors’
           independence, its supervisors certify independence for all team members, so it is
           not possible to ascertain whether each individual is actually free from
           impairments to independence.

           ORA staff did not complete individual declarations indicating their independence
           for all staff assigned to a given audit in 29 of the 30 audits (97 percent) we
           reviewed. As a result, ORA may not be able to ensure that its audit work was not
           weakened by personal impairments to independence. ORA staff should prepare
           individual personal impairment statements to ensure that all staff are
           independent before beginning each audit assignment.

           Although ORA disagrees with this finding, its Audit Policy division plans to
           develop and issue a standardize independence form as part of its updated ORA
           audit manual.

www.oig.dhs.gov                                 9                                       OIG-12-117
                               OFFICE OF INSPECTOR GENERAL
                                   Department of Homeland Security



           Conclusion

           ORA needs to ensure that its audit work is sufficient and appropriate to support
           audit findings and conclusions as required by GAGAS, and it needs to document
           any exceptions to those requirements. ORA should revise and update its audit
           manual and internal quality control process, which should allow it to provide
           reasonable assurance that its audit work is complete and accurate.

           Audit Selection Process

           ORA needs to improve the effectiveness of its audit selection process to ensure
           that the highest risk importers are selected for audit. ORA has not documented
           its audit selection methodology and has not formalized audit selection
           procedures to ensure that staff use similar criteria to select the highest risk
           importers.

           ORA’s audit selection process draws candidates, on average, from a pool of
           approximately 321,000 importers nationwide. Each year, ORA uses a risk-based
           approach to identify which importers it will audit. ORA primarily conducts two
           types of audits:

                  •	 Focused Assessments—comprehensive audits of major importers that
                     evaluate controls to identify importer strengths, weaknesses, and
                     compliance with applicable laws and regulations.

                  •	 Quick Response Audits—narrowly scoped audits of importers in high-risk
                     trade areas identified by CBP and other officials.

           The general objective of these audits is to protect U.S. Government revenue and
           to ensure compliance with applicable laws, regulations, and trade agreements.
           ORA management did not provide adequate evidence that ORA had a formalized
           and documented method to select audit candidates for Focused Assessments
           and Quick Response Audits.

           Focused Assessments and Quick Response Audits

           According to ORA’s charter, the purpose of the regulatory audit function is to
           concentrate CBP’s resources on high-payoff and high-risk transactions. ORA uses
           a database composed of information from other CBP systems to help identify
           high-risk importers for Focused Assessments.


www.oig.dhs.gov                                 10                               	    OIG-12-117
                             OFFICE OF INSPECTOR GENERAL
                                 Department of Homeland Security


           For Focused Assessments, ORA’s audit selection process takes approximately 10
           months. Once it makes its initial selections, ORA narrows the field of potential
           audit candidates, first at a conference of ORA staff and stakeholders, and second
           at individual field offices, after which ORA adds the audit candidates to the
           annual audit plan.

           Before ORA auditors begin a new audit, they perform additional analysis of
           importer data to determine if the importer is still a viable audit candidate.
           According to ORA officials, importers may no longer be good candidates for audit
           for multiple reasons. For instance, the importer may no longer import
           merchandise into the United States, may be importing under a new name or
           importer number, or may have merged with another company. ORA has not
           documented and formalized the current methodology for audit selection to
           ensure that staff use the same criteria to select the highest risk importers for
           audit.

           In addition to Focused Assessments, ORA headquarters receives Quick Response
           Audit referrals from U.S. ports, Immigration and Customs Enforcement, and
           various CBP offices. According to ORA officials, the Field Directors are
           responsible for overseeing the audit selection process in their field offices.
           Headquarters provides the Quick Response referrals annually to the field offices.
           According to ORA management, when the lists of referrals are received, the field
           office contacts the referring official to determine whether the importer is still
           considered high risk.

           Currently, ORA’s policies and procedures do not document the Quick Response
           Audit referral process. In addition, criteria affecting the adequacy of information
           collected and the ability to make informed decisions are not fully established.

           Without a documented plan outlining prioritized criteria, it is difficult for ORA to
           ensure that it is selecting the highest risk candidates for audit. ORA should
           document best practices from each field office to develop a standardized process
           for selecting Quick Response Audits. By standardizing the process, ORA could
           ensure that its field offices consistently apply its methodology to identify the
           highest risk importers for audit and improve continuity, regardless of
           organizational changes such as staff departures, new hires, or reorganizations.

           ORA’s current audit selection process for both Focused Assessments and Quick
           Response Audits resulted in the cancellation of 413 audits from FY 2008 to FY
           2010; audit staff charged approximately 17,391 hours to those canceled audits.
           ORA cancels audits for a number of reasons. For instance, the importer may no
           longer import merchandise into the United States, may have filed for

www.oig.dhs.gov                                11                                       OIG-12-117
                                    OFFICE OF INSPECTOR GENERAL
                                        Department of Homeland Security


              bankruptcy, or the CBP referring official may no longer require audit services on
              the audit. Without established and documented selection criteria, ORA staff
              have selected audits that cannot be performed and as a result are canceled.

              Conclusion

              We believe ORA can better manage the audit selection process and reduce the
              number of cancellations by establishing and documenting audit selection criteria
              and streamlining its audit selection process. With an established, documented
              process, ORA will have greater assurance that the highest risk importers are
              selected for audit.

              ORA agrees that the process can be streamlined and indicated that it is planning
              to develop a Web-based system to improve the process and provide the
              capability to regularly update importer information. In addition, ORA will
              develop a Standard Operating Procedure (SOP) to document the annual audit
              planning process. ORA also agrees that the Quick Response Audits process can
              be improved by using best practices and developing a structured SOP.

              Guidance for Collaborating with Collection Officials

              When an ORA audit identifies duty owed to the U.S. Government, ORA issues its
              report to the pertinent CBP Port Director (action official). The action official may
              then decide to pursue collection of unpaid duties or revenues. ORA’s audit
              manual outlines the procedures for collaborating with and providing collection
              information to action officials. ORA reports that it has a number of procedures
              to communicate, coordinate, and follow up with collection officials. The current
              ORA audit manual provides a broad overview of the collection process;4
              however, it does not—

              •	 Fully explain the roles and responsibilities of ORA personnel;

              •	 Provide timelines for issuing collection requests; and

              •	 Adequately explain special issuance procedures in the event of delays or
                 disagreements.

              ORA’s unclear collection referral policy may affect auditors’ ability to provide
              adequate information for collection officials to take action. If CBP officials do not


   4
       Chapter 12, Enforcement Issues, Section 6: Violations Discovered During an Audit.

www.oig.dhs.gov                                         12                                 	   OIG-12-117
                              OFFICE OF INSPECTOR GENERAL
                                 Department of Homeland Security


           have sufficient evidence to initiate collections, they may not be able to collect
           duty underpayments.

           ORA does not have the authority to collect underpayments, but it has the
           responsibility to advise the appropriate CBP collection officials of the amounts to
           collect. From FY 2008 to FY 2010, ORA identified approximately $154.2 million in
           lost revenue to CBP. As of June 2011, CBP had collected approximately $63.8
           million, or 41 percent of the revenue identified. Of the remaining $90.4
           million—

           •	 $35.7 million was reduced for various reasons such as mitigation, statutes of
              limitation, changes in applicable laws, legal rulings, or companies’ financial
              positions; and

           •	 $54.7 million is still outstanding, pending mitigation or collection.

           Conclusion

           ORA works with other CBP organizations in the CBP collection process. ORA
           needs to update its guidance on collection referrals to clearly identify roles and
           responsibilities of ORA personnel, provide timelines for collection requests, and
           define special issuance procedures to improve collaboration. In addition, ORA
           should improve collaboration with other components involved in CBP’s
           collection process. With improved guidance and collaboration, ORA may be able
           to maximize collections and better protect U.S. Government revenues. ORA
           agrees with this finding and is developing a directive to improve in this area. The
           directive will provide ORA personnel and CBP collection officials with specific
           instructions to resolve ORA audit findings and recommendations. The directive
           will also establish procedures to facilitate implementing audit recommendations,
           monitor the progress of implementation, and report results of resolved audits.

           Recommendations

           We recommend that the Assistant Commissioner for International Trade direct
           the Office of Regulatory Audit to:

           Recommendation #1:

           Identify audit standards to be followed and ensure that all audit activities are
           conducted in compliance with those standards or identify exceptions in audit
           reports.


www.oig.dhs.gov                                 13                                    	   OIG-12-117
                             OFFICE OF INSPECTOR GENERAL
                                 Department of Homeland Security


           Recommendation #2:

           Revise and update ORA’s audit manual to comply with all current GAGAS.

           Recommendation #3:

           Revise the internal quality control process to ensure that the new ORA audit
           manual and GAGAS are followed.

           Recommendation #4:

           Develop formal guidance outlining the current audit selection process for ORA’s
           audits.

           Recommendation #5:

           Update, issue, and implement guidance to improve coordination with ORA
           stakeholders involved in the revenue collection process.

           Management Comments and OIG Analysis

           The OIG conducted an objective assessment of the CBP ORA program using the
           standards outlined by the Council of Inspectors General on Integrity and
           Efficiency. The OIG audit work was conducted according to current professional
           audit standards for performance audits outlined in GAGAS. The audit report
           provides examples to help illustrate and clarify the deficiencies identified. The
           OIG met with CBP to address the issues raised concerning the audit information
           presented in the report. CBP has agreed with all five recommendations and is
           taking corrective actions to address the deficiencies identified in this report.

           CBP Comments to Recommendation #1

           Concur. According to CBP, ORA is revising its audit manual and training staff to
           address the requirements related to the areas identified in this audit report.
           ORA is also reassessing certain types of assignments and will determine whether
           those activities should be classified as something other than an audit. CBP plans
           to have its corrective action implemented by March 31, 2013.

           OIG Analysis

           We consider the recommendation resolved because CBP’s actions satisfy the
           intent of the recommendation, and CBP has provided a plan of action and

www.oig.dhs.gov                                14                                     OIG-12-117
                              OFFICE OF INSPECTOR GENERAL
                                 Department of Homeland Security


           milestones to implement corrective actions. However, the recommendation will
           remain open until we can verify, through review of supporting documentation,
           that the revised ORA audit manual and associated training have been completed.

           CBP Comments to Recommendation #2

           Concur. According to CBP, the ORA audit manual will be fully updated to reflect
           the current version of GAGAS. Specifically, the issuance of updated chapters will
           address the revisions that have been made to the Field Work and Reporting
           Standards in the December 2011 revision of GAGAS. In the interim, ORA has
           updated the existing chapters to line out superseded sections and provide
           references to where the current policies and procedures can be found in order to
           provide a more complete, organized, and easily accessible audit manual. CBP
           plans to have its corrective action implemented by March 31, 2013.

           OIG Analysis

           We consider the recommendation resolved because CBP’s actions satisfy the
           intent of the recommendation, and CBP has provided a plan of action and
           milestones to implement corrective actions. However, the recommendation will
           remain open until we can verify, through review of supporting documentation,
           that the revised ORA audit manual and associated training have been completed.

           CBP Comments to Recommendation #3

           Concur. According to CBP, it will establish a working group to evaluate the
           current field quality assurance program and develop a proposal to strengthen
           and revise its internal quality control process. CBP plans to have its corrective
           action implemented by March 31, 2013.

           OIG Analysis

           We consider the recommendation resolved because CBP’s actions satisfy the
           intent of the recommendation, and CBP has provided a plan of action and
           milestones to implement corrective actions. However, the recommendation will
           remain open until we can verify, through review of supporting documentation,
           that the internal quality control process has been strengthened based on the
           working group’s recommendations.




www.oig.dhs.gov                                 15                                      OIG-12-117
                            OFFICE OF INSPECTOR GENERAL
                               Department of Homeland Security


           CBP Comments to Recommendation #4

           Concur. According to CBP, it is developing formal guidance and documenting the
           current audit selection process. CBP plans to have its corrective action
           implemented by March 31, 2013.

           OIG Analysis

           We consider the recommendation resolved because CBP’s actions satisfy the
           intent of the recommendation, and CBP has provided a plan of action and
           milestones to implement corrective actions. However, the recommendation will
           remain open until we can verify, through review of supporting documentation,
           that the formal guidance outlining the planning processes has been completed.

           CBP Comments to Recommendation #5

           Concur. According to CBP, it is coordinating with stakeholders and has
           developed a draft CBP Directive, which establishes procedures for the
           implementation and resolution of ORA audit findings and recommendations.
           CBP plans to have its corrective action implemented by March 31, 2013.

           OIG Analysis

           We consider the recommendation resolved because CBP’s actions satisfy the
           intent of the recommendation, and CBP has provided a plan of action and
           milestones to implement corrective actions. However, the recommendation will
           remain open until we can verify, through review of supporting documentation,
           that the draft Directive has been finalized and the ORA audit manual has been
           updated to reflect the revised process.




www.oig.dhs.gov                              16                                    OIG-12-117
                            OFFICE OF INSPECTOR GENERAL
                                Department of Homeland Security


   Appendix A
   Objectives, Scope, and Methodology
   The Department of Homeland Security (DHS) Office of Inspector General (OIG) was
   established by the HomelandfSecurityfActfoff2002 (Public Law 107-296) by amendment
   to the InspectorfGeneralfActfoff1978. This is one of a series of audit, inspection, and
   special reports prepared as part of our oversight responsibilities to promote economy,
   efficiency, and effectiveness within the Department.

   The ranking member of the Senate Committee on Finance requested that we conduct an
   audit of trade compliance and revenue collection programs, including management
   enforcement of laws, regulations, and procedures designed to ensure revenue collection
   and protection for the CBP ORA. To address the Senator’s request, we reviewed (1)
   compliance with GAGAS, (2) audit selection, and (3) revenue collection.

   We reviewed audits completed from FY 2008 through FY 2010. We visited six field
   offices (Charlotte, Chicago, Philadelphia, Long Beach, New York, and San Francisco) and
   one branch office (Denver) to conduct our review. The locations were selected based
   on the highest amounts of uncollected revenue from audit findings. We evaluated
   internal controls that were pertinent to the audit objective by reviewing ORA policies
   and quality assurance procedures.

   Our analysis of ORA’s audit tracking system showed that the office completed 1,053
   audits during FYs 2008, 2009, and 2010. To determine whether ORA is complying with
   GAGAS, we reviewed 30 audits. We judgmentally selected the audits based on the
   different types of audits performed at the offices we visited and the amounts of
   uncollected revenue from audit findings. Our review included analysis of audit reports
   and audit documentation, as well as interviews with key staff. As part of our audit
   sample, we also reviewed two randomly selected audits that did not result in
   recommended collection of revenue. To review each audit and identify any departures
   from GAGAS, we analyzed audit documentation using applicable and selected portions
   of the GuidefforfConductingfPeerfReviewsfoffthefAuditfOrganizationsfoffFederal Officesfof
   InspectorfGeneral, dated March 2009. We also compared the ORA audit manual with
   2007 GAGAS to identify areas of deficiency in ORA’s policy.

   To determine how ORA analyzes risk for each importer, we reviewed the audit selection
   process; reviewed ORA’s audit manual; interviewed ORA management officials, Field
   Office Directors, Assistant Directors, and Program Managers at sites visited; conducted a
   survey of all Field Office Program Managers; reviewed the audit selection database and
   criteria used; and analyzed audit results reported in ORA’s management information
   system.

www.oig.dhs.gov                               17                                     OIG-12-117
                            OFFICE OF INSPECTOR GENERAL
                                Department of Homeland Security



   To determine whether ORA is structured to be independent of the importers, we
   reviewed the audit reporting process. We interviewed Port Directors to determine their
   role in collecting the money that ORA has determined is due to the U.S. Government.
   We interviewed Import Specialists to determine their role in collecting funds that ORA
   has determined are owed to the U.S. Government. We interviewed Fines, Penalties, and
   Forfeitures Officials at five of the seven sites visited to determine the nature of their
   role in the collection process; these interviews allowed us to better establish ORA’s
   independence.

   We conducted this performance audit between April and October 2011 pursuant to the
   InspectorfGeneralfActfoff1978, as amended, and according to generally accepted
   government auditing standards. Those standards require that we plan and perform the
   audit to obtain sufficient, appropriate evidence to provide a reasonable basis for our
   findings and conclusions based upon our audit objectives. We believe that the evidence
   obtained provides a reasonable basis for our findings and conclusions based upon our
   audit objectives.




www.oig.dhs.gov                               18                                     OIG-12-117
                                    OFFICE OF INSPECTOR GENERAL
                                         Department of Homeland Security


   Appendix B
   Management Comments to the Draft Report
                                                                                          1300 Pennsylvania Avenue NW
                                                                                          washington, DC 20229


                                                                                          u.s. Customs and
                                                                                          Border Protection


                                                                                                 August 7, 20J2



                  Mr. Charles K. Edwards
                  Acting Inspector General
                  U.S. Department of Homeland Security
                  245 Murray Drive, SW, Bui ld ing 410
                  Washi ng ton , OC 20528

                  Re: Draft OIG Report, "Audit of Customs and Border Protect ion's Office of Regulatory
                      AuLiit" (Pnljcct No. 1()-I()O-AlJD-CBP)

                  Dear Mr. Edwards:

                  Thank you for the opportunity to review and comment on this report. The U.S. Customs
                  and Border Protection (CBP) appreciates the Department of Homeland Security Office of
                  Inspector G~neral's (O ICl's) wmk in planning and t:llmlw.;t ing its r~ vit:w and issuing this
                  report.

                  '111C dran repnrt indud~cl several r~t:tJmmcml ali(Jns that th~ CRP Office nr In tem<ltion<l i
                  Trade, OOke of Regulatory Audit (ORA) ean take to enhance its overall effectiveness,
                  and actions are already underway to implement these recommendations. We believe,
                  however, Lhat the n::pmtneeLis additional co nl ~xt and p~rsp~ct i vl: tll hdp cnsure a "cu ld
                  readcr" is not left with any mistaken impressions about ORA audit erforts.

                  For example, the report states thai ORA is responsible for enforcing compliance ;
                  however, it is important to nOlc that ORA., with only about 400 auditors nationwide.
                  representsjust one small pal1 of a much larger CBP trade processing , oversight, and
                  enforcement process related to the collection of revenue underpayments and importer
                  noncompliance. Over half the merchandise for sale in U.S . markets comes rrom abroad.
                  and in 20 I I the total value of all imp0i1s into the United States was more than $2.3
                  trill ion. For eBP- whose mission is to prcvent terrorists and terrorist weapons from
                  entering the United States , while facilitating the flow oflegitimate trade and travel-
                  processing these imports means handling 29.5 million emr)' summaries with over 117.8
                  million li nes and collecting $37.2 billion in revenues. ORA's primari ly focus is on fac t-
                  finding in support of olher port end program ortices charged with the actual processing of
                  entries and collectioll of duties. MallY othc:r lcvds of targeting, veri fication , and
                  enforcement occur in real time beyond the scope arORA's area of iniluencc and audit
                  practices.




www.oig.dhs.gov                                                19                                                       OIG-12-117
                                     OFFICE OF INSPECTOR GENERAL
                                           Department of Homeland Security




                  Additionally, whi le the OlG ' s report focused on ORA involvement in reven ue protection,
                  it should he nuted th aI there arc m,my fi:ldllr" l:lIll si de red oUlside the ORA audit process
                  that impnct CBP' s nbility La co llect recommended revenue. For in stance, recommended
                  amounts arc sometimes reduccd beca use of the acceplance of compromise offers when an
                  importer demonstrates an inabi lity to pay the full amount recommended. It also should
                  be recognized that many o ther ORA efforts have resulted in va luable nonrevenue
                  impacts. In FY 20 11 , fo r example, ORA completed more than 350 engagemenls
                  addressin g a di verse range of areas includi ng revenue protection, intell ectual property
                  rights, agriculture, import safety, antidumping and countervai ling duties (ADiCVD), free
                  mule a~reernenls , amI a irline user fees. In Fulfilli ng CBP's resrxHlsibi liLy for enForcing
                  the AD/CV D Inw, ORA helped U.S. companies compete with fore ign industry by
                  conducting audits of importers suspected of will fully Circumve nti ng the p rovisions o f the
                  f\D /CVO law. ORA also helped combat trade fraud and other criminal act ivities by
                  provid ing technical ass istance related to money laundering, illegal immigratio n, visa
                  fraud, and human smuggling.

                  In additi on, OIG reported that ORA needs to ensure that its audi ts are conducted in
                  accordance with current government auditing standards- C BP agrees and, as previously
                  stated, is taking actions to do so, especiall y in regards to ensuring that ORA work is
                  appropriately documented in accordance whh these standards. However, we believe the
                  report could more cl early state the scope and objecti ves ofO IG's review. wh ich did not
                  include validat ing the propriety cfORA ' s audit find ings and conclusions, with which the
                  O IG has nOllaken except ion.

                  ORA is comm itted to ensuring the accuracy and completeness of its findin gs and to
                  communicating. coord inat ing, a nd foll owing up with others to resolve and implement its
                  recommendatio ns, as appropriate. This incl udes:

                  •   working closely with the respons ible CBP officials throughout the audillo ensure
                      they have the infomlation and documents needed to implement Ihe enforcement
                      <Jelinn and audit recnmmendations, such as incl ud ing CBI' Office of Field Operations
                      Import Specia lists on audit teams;
                  •   o bt aini ng concurrence with audit findings and recommendations from Action
                      Offici <tIs prior to repon issuance;
                  •   using the Comm ercial Enforcement Analys is Response process to ensure that
                      signifi cant commerc ial vio lations identifi ed in ORA audi ts receive prioTl ty; and
                      monitoring lhe status of the implementation of audit recommendations by following
                      up wi th lhe responsible cnp officials every 90 days and recording the information in
                      Ol{"'\ ' s management info rmati on systems.

                  The drnft rcport contained five recommendations with which CO P concurs. Specifi cally,
                  OIG recommended that the Assistant Commissioner for International Trade d irect ORA
                  to:




                                                                 2




www.oig.dhs.gov                                                 20                                                   OIG-12-117
                                    OFFICE OF INSPECTOR GENERAL
                                         Department of Homeland Security




                  Recommendation #1: Identify audit standards 10 bc followed and ensure that all audit
                  activities are conducted in compliance with those standards or identify exceptions in audit
                  report".

                  Response: Concur. ORA wi ll ensure that the updated audit manual and associated
                  tmining t!mphasizes the requirements related to the areas in which oro cited deficiencies.
                  ORA is also reassessing certain types of assignments and will determine whether those
                  activities shou ld be classified as something other than an aud it. Estimated Completion
                  Date (ECD): ~Iarch 31. 2013 .

                  Recommendation #2: Revise       ~nd   update ORA 's   ~udit m~n u a llo   comply wi th all
                  current GAGAS.

                  Response: Concur The audit manual will be fu ll y updated 10 reflect thc current vcrsion
                  of Generally Accepted Govemmcnt Auditing Standards (GAGAS). :\10rc specifically,
                  the issuance of updated chapters will address the revisions that have been made to the
                  Field \\lork and Reponin g Standards in the f1ecemher 2011 Revision ofGACiAS. In the
                  interim , ORA has updated the existing chaptcrs to linc out superseded scctions and
                  provide references to where the current po lie ics and procedures can be found in order to
                  provide a more compll:te, organized, amI easi ly access ible aullit IllallU<:lI ECD:
                  ',,1arch 31, 2013.

                  RCCUmlllt:ndalillll #3: Revise the internal quality control process to Cllsur!! thc new
                  ORA aud it manual and GAGAS arc followed.

                  Response: Concur. ORA wiil establish a working group to evaluate the current ficld
                  quality assurancc program and dcve lop a proposal to strengthen and revise its internal
                  qll~lity control process. ECD : March 3 1, 20 13.


                  Recommendation #4: Develop formal guid ance outlining the current audit selection
                  process for ORA's audits.

                  Response: Concur. ORA is developing formal gu idance and documenting the current
                  process it has in plRce. ECT1: :\1arch 31 , 2013 .

                  Recommendation #5: Update, issue, and implement guidance to improve coordination
                  witll ORA stakl:holuers involved in the revenue collection process

                  Response: Concur. ORA is coordinating with stakeholders and has developed a draft
                  CfiP Direct ive, wh ich estab lishe~ procedures for the implementation and resolution of
                  ORA audit find ings and recommendations. ECD: March 3 \. 2013.




                                                                3




www.oig.dhs.gov                                               21                                                OIG-12-117
                                   OFFICE OF INSPECTOR GENERAL
                                        Department of Homeland Security




                  Again, thank you for the opportunity to review and comment o n this d raft report.
                  Teclmical comments were previously provided under sepamte cover. Plc(lsC fee! free to
                  contact me or Mr. Joseph Westmoreland, Deputy Director, Management Inspections
                  Divi sion, at (202) 325~ 7556, if you have any questions. We look forward to working
                  with you in lhe futun:.

                                                      Sincerely,




                                                      Assistant Commissio ner
                                                      Office of lntcma l Affairs




                                                             4




www.oig.dhs.gov                                            22                                             OIG-12-117
                           OFFICE OF INSPECTOR GENERAL
                              Department of Homeland Security


   Appendix C
   Major Contributors to This Report
   Paul Wood, Director
   Stephanie Christian, Audit Manager
   Jeanette Hyatt, Auditor
   Carolyn Floyd, Auditor
   Keith Nackerud, Program Analyst
   Rebecca Mogg, Program Analyst
   Dianne Leyva, Program Analyst
   Chris Byerly, Referencer




www.oig.dhs.gov                           23                    OIG-12-117
                             OFFICE OF INSPECTOR GENERAL
                                 Department of Homeland Security


   Appendix D
   Report Distribution
   Department of Homeland Security

   Secretary
   Deputy Secretary
   Chief of Staff
   Deputy Chief of Staff
   General Counsel
   Executive Secretary
   Director, GAO/OIG Liaison Office
   Assistant Secretary for Office of Policy
   Assistant Secretary for Office of Public Affairs
   Assistant Secretary for Office of Legislative Affairs
   Director of Local Affairs, Office of Intergovernmental Affairs

   Office of Management and Budget

   Chief, Homeland Security Branch
   DHS OIG Budget Examiner

   Congress

   Congressional Oversight and Appropriations Committees, as appropriate




www.oig.dhs.gov                                24                          OIG-12-117
ADDITIONAL INFORMATION AND COPIES

To obtain additional copies of this document, please call us at (202) 254-4100, fax your
request to (202) 254-4305, or e-mail your request to our Office of Inspector General
(OIG) Office of Public Affairs at: DHS-OIG.OfficePublicAffairs@oig.dhs.gov.

For additional information, visit our website at: www.oig.dhs.gov, or follow us on Twitter
at: @dhsoig.

OIG HOTLINE

To expedite the reporting of alleged fraud, waste, abuse or mismanagement, or any
other kinds of criminal or noncriminal misconduct relative to Department of Homeland
Security (DHS) programs and operations, please visit our website at www.oig.dhs.gov
and click on the red tab titled "Hotline" to report. You will be directed to complete and
submit an automated DHS OIG Investigative Referral Submission Form. Submission
through our website ensures that your complaint will be promptly received and
reviewed by DHS OIG.

Should you be unable to access our website, you may submit your complaint in writing
to: DHS Office of Inspector General, Attention: Office of Investigations Hotline, 245
Murray Drive, SW, Building 410/Mail Stop 2600, Washington, DC, 20528; or you may
call 1 (800) 323-8603; or fax it directly to us at (202) 254-4297.

The OIG seeks to protect the identity of each writer and caller.
